<html>
<title> - THE DETENTION AND TREATMENT OF HAITIAN ASYLUM SEEKERS</title>
<body><pre>[Senate Hearing 107-973]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-973

         THE DETENTION AND TREATMENT OF HAITIAN ASYLUM SEEKERS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 1, 2002

                               __________

                          Serial No. J-107-107

                               __________

         Printed for the use of the Committee on the Judiciary



88-613              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                

                      Subcommittee on Immigration

               EDWARD M. KENNEDY, Massachusetts, Chairman
DIANNE FEINSTEIN, California         SAM BROWNBACK, Kansas
CHARLES E. SCHUMER, New York         ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          CHARLES E. GRASSLEY, Iowa
MARIA CANTWELL, Washington           JON KYL, Arizona
JOHN EDWARDS, North Carolina         MIKE DeWINE, Ohio
                 Melody Barnes, Majority Chief Counsel
                Stuart Anderson, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     2
Conyers, Hon. John, Jr., a Representative in Congress from the 
  State of Michigan [ex officio].................................     7
    prepared statement...........................................    27
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1

                               WITNESSES

Johnson, Stephen C., Policy Analyst for Latin America, Heritage 
  Foundation, Washington, D.C....................................    12
Little, Cheryl, Executive Director, Florida Immigrant Advocacy 
  Center, Miami, Florida.........................................    10
Ocean, Marie Jocely, Haitian asylee and former detainee, Miami, 
  Florida........................................................     8
Parks, Dina Paul, Executive Director, National Coalition for 
  Haitian Rights, New York, New York.............................    13
Wenski, Thomas G., Auxiliary Bishop of Miami, Florida, and 
  Chairman, U.S. Conference of Catholic Bishops' Committee on 
  Migration, Miami, Florida......................................     5

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Lida Rodriguez-Taseff, President, 
  Miami-Dade County Chapter, Miami, Florida, statement...........    22
American Federation of Labor and Congress of Industrial 
  Oganizations, Washington, D.C., statement......................    24
Carey-Shuler, Barbara M., County Commissioner, Miami-Dade County 
  Board of County Commissioners, Miami, Florida, statement.......    25
Department of Justice, Daniel J. Bryant, Assistant Attorney 
  General, Office of Legislative Affairs, Washington, D.C........    30
Glover, Danny, Miami, Florida, statement.........................    33
Graham, Hon. Bob., a U.S. Senator from the State of Florida, 
  statement......................................................    35
Johnson, Stephen C., Policy Analyst for Latin America, Heritage 
  Foundation, Washington, D.C., prepared statement...............    38
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, and Hon. Sam Brownback, a U.S. Senator from the 
  State of Kansas, joint letter..................................    45
Lawyers Committee for Human Rights, Anwen Hughes, Staff Attorney, 
  Washington, D.C., statement....................................    47
Little, Cheryl, Executive Director, Florida Immigrant Advocacy 
  Center, Miami, Florida, prepared statement.....................    59
Miami-Dade County Community Relations Board, Adora Obi Nweze, 
  Chair, Community Relations Board, position statement...........    73
National Association for the Advancement of Colored People, Brad 
  Brown, President, Miami-Dade Branch of the NAACP, Miami, 
  Florida........................................................    74
Nelson, Hon. Bill, a U.S. Senator from the State of Florida, 
  statement......................................................    82
Ocean, Marie Jocelyn, Haitian asylee and former INS detainee, 
  prepared statement.............................................    83
O'Laughlin, Sister Jeanne, OP, President, Barry University, 
  Broward County, Florida, statement.............................    86
Parks, Dina Paul, Executive Director, National Coalition for 
  Haitian Rights, New York, New York, prepared statement.........    87
Ros-Lehtinen, Hon. Ileana, a Representative in Congress from the 
  State of Florida, statement....................................    99
Russo, Monica, President, SEIU 1199 Florida, AFL-CIO, 
  International Executive Board, Service Employees Interational 
  Union, Florida, statement......................................   101
United Caribbean African Alliance, Inc., Bernier Lauredan, M.D., 
  Chairman, Washington, D.C., statement..........................   103
United Nations High Commissioner for Refugees, Guenet Guebre-
  Christos, Regional Representative, Washington, D.C., statement.   105
United States District Court for the Southern District of 
  Florida, Miami Division........................................   112
Wenski, Thomas G., Auxiliary Bishop of Miami, Florida, and 
  Chairman, U.S. Conference of Catholic Bishops' Committee on 
  Migration, Miami, Florida, prepared statement..................   118
Women's Commission for Refugee Women and Children, Wendy A. 
  Young, Director of Government Relations, New York, New York, 
  statement......................................................   127

 
         THE DETENTION AND TREATMENT OF HAITIAN ASYLUM SEEKERS

                              ----------                              


                        TUESDAY, OCTOBER 1, 2002

                                       U.S. Senate,
                               Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:46 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, Chairman of the Subcommittee, presiding.
    Present: Senators Kennedy, Brownback, and Representative 
Conyers [ex officio.]

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Chairman Kennedy. Thank you for your patience. We look 
forward to our hearing today.
    Senator Brownback and I had our consultation with the State 
Department on the number of immigrants and we are disappointed 
with the administration's decisions in terms of the total 
numbers, but we are going to work with them to try and see if 
we can't persuade the administration to respond to the great 
human tragedy that is being experienced by refugees all over 
the world and for many who meet the criteria which both the 
United States and the international community have defined as 
being the criteria under which they would be welcomed here into 
the United States.
    I want to welcome some special guests who are longstanding 
advocates for Haitian rights. We have representatives here from 
Massachusetts, Florida, New York, and Connecticut. I thank all 
of you for your leadership and commitment and your support for 
the fair treatment of Haitian refugees.
    Many of us are troubled by the detention policy of the 
Department of Justice. On December 3, 2001, a refugee boat 
carrying 187 Haitians ran aground off the coast of Florida. The 
Coast Guard rescued 167 persons and they were detained and 
placed in removal proceedings by the Department of Justice.
    The INS Deputy Commissioner instructed the INS field 
officers to implement a new parole policy in cases of all 
Haitians arriving by boat in Florida after December 2001. The 
instructions stated that no Haitian should be paroled from 
detention without approval from Washington.
    One of the express purposes of this new policy is the 
deterrence of future Haitian arrivals by sea. Last week, in a 
letter from the Justice Department, they confirmed their change 
in policy and explained their reasons for the change, that 
detention was needed to ``prevent against a potential mass 
migration to the United States.''
    A major concern is that such a policy violates well-
established international refugee standards which are the basis 
of U.S. law. As an advisory opinion of the United Nations High 
Commissioner for Refugees states, ``[t]he detention of asylum 
seekers...to deter future arrivals does not fall within any of 
the exceptional grounds for detention and is contrary to the 
principle underlying the international refugee protection 
regime.''
    Another major concern is whether this detention policy is 
discriminatory. It appears to be a policy based on the national 
origin of the detainee, with no regard for the person's 
individual record or circumstances. The policy applies only to 
Haitian asylum seekers. Similarly situated asylum seekers of 
other nationalities are routinely released.
    Most of the Haitians in question have demonstrated a 
credible fear of persecution, have family or community contacts 
willing to sponsor them, do not pose a flight risk, and would 
not pose a danger to the community. These factors would 
normally have resulted in grants or parole from detention and 
are the same factors currently used to parole other nationals 
from detention. Yet, the Haitians have been singled out for 
more restrictive treatment. Such a policy appears to violate 
U.S. law, which according to a 1995 Supreme Court decision, 
must be based on individualized parole determinations without 
regard to race or national origin.
    Prolonged detention has also interfered with the ability of 
Haitians to present their asylum claims. Few of the Haitians 
can afford to retain private counsel, and few legal service 
providers have the staff and resources to represent all of the 
detainees.
    As a result, many Haitians have been forced to appear in 
immigration courts unrepresented. In some cases, they have 
relied on INS officers to assist them in completing their 
asylum applications, a clear conflict of interest. Despite 
these problems, requests from local legal service organizations 
for adequate time and access to Haitian detainees has at times 
been denied.
    As of last week, only 16 of the 167 detainees from the 
December 2001 boat have been granted asylum, despite a majority 
having initially passed the credible fear interview. Fifty of 
the detainees have been deported and another 54 are awaiting 
removal. Given the current escalation of violence in Haiti, the 
life and death implications of improper detention practices and 
inadequate access to representation are very troubling.
    The committee invited the Justice Department to testify 
today. Unfortunately, the Department did not send a 
representative to participate in this hearing to defend or 
explain the policy they initiated, implemented, and stand 
behind. I regret the Department's absence and I look forward to 
the testimony of our witnesses.
    Senator Brownback?

STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM THE STATE 
                           OF KANSAS

    Senator Brownback. Thank you, Mr. Chairman, and thank you 
for calling the hearing. I too am disappointed in the numbers 
that are coming out, the refugee resettlement numbers in the 
United States, and we are going to continue to work together to 
try to get those numbers up and to get a larger number of 
refugees into the United States. We need to; it is the right 
thing for us to do.
    There are a number of people sitting in very difficult, 
extraordinarily hostile circumstances in refugee camps around 
the world and we really need to help these people out. I know 
we have had difficulties after last September 11. Those are 
well-known and documented, but it doesn't remove our need to be 
able to help people that are in the most dire of circumstances.
    I think it ennobles us as a country, and it also speaks 
volumes to the rest of the world, when we open our country up 
to help those in the worst of circumstances. So I am hopeful 
that we can continue to put some pressure forward to get that 
refugee population number up. I am eager to hear the testimony 
by the witnesses here today.
    It needn't be repeated, but it is always worth repeating 
that our Nation has a long and noble tradition of being a 
country or refuge. We are the world's leader in the protection 
of refugees and asylum seekers, and I am pleased that we are 
and I want us to continue to be that.
    No other nation has made the political, financial, or 
spiritual commitment that this Nation has made to sheltering 
the persecuted from harm. It is the Book of Jeremiah for 
guidance that we can read. This is what the Lord says: ``Do 
what is just and right. Rescue from the hand of the oppressor 
the one who has been robbed. Do no wrong or violence to the 
alien.'' Then you can even look in the Book of Matthew: ``For I 
was hungry and he gave me something to eat. I was thirsty and 
he gave me something to drink. I was a stranger and you invited 
me in.''
    Our Nation's commitment extends to all refugees, 
irrespective of their race, nationality, religion, political 
opinion, or social group. Our obligation is to rescue from the 
hand of the oppressor, to treat the stranger with kindness and 
respect, no matter where that person comes from.
    I appreciate that with respect to Haiti, there are 
political and administrative considerations that guide the 
administration's detention policies and have done so with prior 
administrations. However, the detention of Haitian asylum 
seekers is neither a new topic nor an unfamiliar controversy. 
To the contrary, it appears to be a chronic concern that 
crosses administrations.
    Mr. Chairman, I look forward to the testimony of our 
witnesses and welcome their insights. I appreciate the passion 
and compassion that they will bring to the issue. I hope that 
with their help, we can bring the NGO community and the 
administration together to work out a meaningful and lasting 
solution to the problems that will be detailed before us today, 
and that there will not be a prejudice based upon one certain 
group or another or other considerations. We need to consider 
and treat everybody as equal and the same in regard to refugee 
policy and asylum seekers seeking asylum or refuge in the 
United States.
    Mr. Chairman, as the administration is not here to testify 
today, I would like to submit for the record a document that 
represents the administration's position. The correspondence is 
from the Assistant Attorney General, Daniel Bryant. It is dated 
September 25 and it is chronicling the development of the 
current policy toward Haitian asylum seekers.
    With that, Mr. Chairman, I look forward to the testimony we 
are going to hear today, and I do hope we can start to move 
forward toward some resolution of this chronic problem.
    Chairman Kennedy. Thank you very much. We will include in 
the record.
    I would like to have our panel come up.
    Bishop Thomas Wenski is the Auxiliary Bishop of Miami, 
Florida, and Chairman of the U.S. Conference of Catholic 
Bishops' Committee on Migration. He is also Director of 
Catholic Charities for the Archdiocese of Miami. For more than 
20 years, Bishop Wenski has been an eloquent and powerful voice 
for refugees fleeing persecution.
    Bishop Wenski speaks Creole and is especially well-known 
both in the United States and Haiti as a defender of the rights 
of Haitians, and I am honored to welcome him and look forward 
to his testimony.
    I would also like to welcome Marie Ocean, who is a Haitian 
asylee and a former INS detainee at the Turner Guilford Knight 
Correctional Center. Marie Ocean fled her native Haiti after he 
father and brother were already assassinated by political 
opponents and she feared for her life. She is one of the 
original December 2001 boat refugees.
    Ms. Ocean, I would like to thank you very much for being 
here. I know it took a lot of courage to share your story with 
us. I also want to thank Gepsie Metellus, who will be 
translating for you.
    Cheryl Little is the Executive Director of the Florida 
Immigrant Advocacy Center in Miami. Ms. Little co-founded the 
Florida Immigrant Advocacy Center that provides free legal help 
to immigrants of all nationalities. FIAC serves the most 
vulnerable immigrants, including asylum seekers, the homeless, 
and victims of domestic violence. Ms. Little is a nationally 
recognized, tireless advocate deeply committed to safeguarding 
the rights of asylum seekers and refugees. I look forward to 
her testimony.
    I would like to welcome Stephen Johnson, a former State 
Department officer who has worked in the Bureau of Inter-
American Affairs and Public Affairs. He is a currently the 
Latin American policy analyst at the Kathryn and Shelby Cullom 
Davis Institute for International Studies at the Heritage 
Foundation.
    During his time at the State Department, Mr. Johnson was a 
writer and researcher, serving as the Director of the Central 
American Staff Working Group, and later as the Chief of the 
Editorial Division in the Public Affairs Bureau. We welcome him 
and thank him for testifying. I look forward to your views.
    Dina Paul Parks is the Executive Director of the National 
Coalition for Haitian Rights, in New York City. She helps to 
develop policy and recommendations on immigration, human 
rights, and Haitian American community development. NCHR was 
established in 1982 in response to the waves of refugees 
fleeing the oppressive Duvalier regime. For over 20 years, the 
NCHR has promoted human rights and democracy in Haiti, while 
advocating for fair treatment and policies for Haitian 
refugees. I am pleased that she will be testifying today.
    We will hear from Bishop Wenski.

   STATEMENT OF THOMAS G. WENSKI, AUXILIARY BISHOP OF MIAMI, 
  FLORIDA, AND CHAIRMAN, UNITED STATES CONFERENCE OF CATHOLIC 
        BISHOPS' COMMITTEE ON MIGRATION, MIAMI, FLORIDA


    Bishop Wenski. Thank you, Mr. Chairman, for inviting me to 
testify today. First, I would like to thank you and your 
subcommittee for holding this hearing today. I thank you for 
your longstanding commitment to immigrants and refugees in this 
Nation.
    I would also like to thank Senator Brownback for his 
support of fair access for asylum seekers seeking protection in 
the United States. Senator Brownback also took time out of his 
busy schedule to visit with the United States Catholic 
Conference of Bishops' Committee on Migration several weeks 
ago. At that time, Senator Brownback spoke of his concern at 
the treatment accorded Korean asylum seekers in China. I think 
today's proceedings might point out some unfortunate parallels 
between the way China treats North Korean asylum seekers and 
our own policy toward asylum seekers from Haiti.
    Before being ordained a bishop, I worked as a parish priest 
among the Haitian population in South Florida for almost 20 
years. During that time, my pastoral duties included visiting 
Haitians detained at the INS Krome processing center.
    The present policy, which holds a group of 160 Haitian 
nationals in indefinite detention since December of last year, 
recalls the ill-fated detention policies of the early 1980's 
when thousands of Haitians were held in detention at Krome and 
in other places for more than a year, until the Federal courts 
forced the INS to release them.
    At that time, USCCB's Migration and Refugees Services 
assisted the Government in helping these detainees reunite with 
family members in the United States, seek legal advice and 
counsel, and to comply with periodic reporting to INS while 
their applications for asylum were being processed.
    In my work with Haitians in South Florida, I have found 
them to be hard-working, honest, and God-fearing members of our 
communities. They have been a positive influence in South 
Florida and elsewhere. In recent years, Haitian Americans have 
distinguished themselves in all areas of our community's life, 
and indeed today several are elected public officials. In other 
words, whatever fears there might have been that led to the 
early policies of the 1980's have not been realized. They were 
unfounded. So one must ask why do we return now to a policy 
that is unfair and unjust?
    The present policy is unfair because it singles out 
Haitians for disparate treatment. Other groups of asylum 
seekers similarly situated who arrive on the shores of South 
Florida are not subjected to indefinite detention. Except for a 
few cases, nearly all Haitians arriving by sea to Miami have 
been detained, while more than 90 percent of other 
nationalities arriving the same way during the same period have 
been released while their claims are adjudicated.
    The present policy is unjust, for the indefinite detention 
of asylum seekers erodes refugee rights provided for under 
international law. In my written statement I submitted to the 
committee, the appropriate references to international laws are 
cited.
    As we have done since the mid-1970's, the United States 
Bishops call for an end to a policy that unfairly and unjustly 
discriminates against Haitian asylum seekers. Once again, we 
call for a reexamination of current interdiction policies. 
Haitians stopped on the high seas or in airports must not be 
denied the opportunity to request asylum and to be heard 
fairly.
    Once again, we call for the reversal of the current policy 
of indefinite detention of Haitian asylum seekers. Those 
already found to have met credible fear criteria should be 
immediately released and afforded a reasonable time to secure 
counsel and to petition for asylum.
    Once again, we offer our assistance to INS in helping to 
resettle asylum seekers from Haiti while their cases go 
forward. In the early 1980's when we collaborated with INS in 
facilitating the release of Haitians, we helped them to report 
their whereabouts to INS and to appear at their hearings. They 
did not abscond, they did not pose a flight risk.
    USCCB's MRS has long collaborated with INS and ORR in 
helping Haitian and Cuban entrants process through Krome for 
over 20 years. This offers a way that builds upon the successes 
of the past, that serves the interests of justice, and provides 
a cost-effective alternative to indefinite detention.
    I remember how 1 day in the early 1980's officials from INS 
in Miami contacted me at my church. They requested that I 
accompany them to the home of a woman in Fort Lauderdale. Her 
son was detained in Krome for several months after arriving 
from Haiti after a harrowing voyage in a rickety boat. Fearing 
for his life if forcibly deported to Haiti and despairing of 
ever leaving the monotony of a then seriously overcrowded 
facility, he committed suicide in Krome. The INS officials 
asked me to interpret for them as they presented their 
condolences to his mother.
    Today, whether in Krome where the men are held or the TGK 
correctional facilities, the county jail where the women are 
held, the present revival of the old and cruel policy of 
indefinite detention has recreated those same conditions that 
breed fear and despair, and portend further tragedy. Mr. 
Chairman, this is not worthy of the United States of America.
    [The prepared statement of Bishop Wenski appears as a 
submission for the record.]
    Chairman Kennedy. Thank you very much, Bishop.
    We are joined by Congressman Conyers, who has been a great 
leader nationally on this issue. Certainly, if he had a word to 
say, we would welcome it, and we would invite him, as well, if 
he had the time, to listen to the rest of our witnesses as 
someone who cares very deeply about this issue. We always 
welcome our colleagues from the other side, and more 
particularly welcome a friend.

   STATEMENT OF HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Representative Conyers. Mr. Chairman, I am honored, first 
of all, to sit with you anywhere, but in the U.S. Senate it is 
even better, and at a committee that you are chairing is even 
better yet. So please know that I am happy to be with you.
    I would be happy wherever I was sitting, especially with 
the witnesses that you have on this panel. Cheryl Little and 
Marie Ocean and, our friend, Ms. Parks have all done incredible 
work on this subject. It is a labor of love, and I am very 
privileged to join with you, Bishop Wenski, in merely 
discussing this subject for a couple of minutes.
    I am going to put my statement in the record, and so what I 
would like to do now is just lift up the main problem here, 
which is that Haitian arrivals into this country, particularly 
through Florida, seeking asylum are treated differently from 
everybody else that comes to the United States--everybody.
    There is a policy of, number one, turning them away right 
on the spot, no questions asked. They turn the boats around. 
You may say, do they need food or nourishment, or are they 
sick, or is their little raft capable of going back? They turn 
it around. That is it, no questions asked. That is in 
violation, of course, of our immigration laws, but it more 
seriously contravenes any spirit of the treatment that human 
beings should be afforded anywhere in the world, much less 
coming to the shores of the United States.
    The other point is about Krome itself, which is a 
nightmare. I was talking to the acting superintendent there. 
Here are some of the problems encountered during this visit.
    [The information referred to appears as a submission for 
the record.]
    Representative Conyers. The discriminatory process of the 
Immigration and Naturalization Service has to end, and I sure 
hope that they are scheduled to come before you today or 
sometime soon. I would sure like to hear their statements under 
oath about some of the things that are going on there. The 
separation of mothers from their children is disgraceful.
    Then the final point that occurs to me is the way the 
lawyers representing Haitian asylum seekers are treated in the 
INS courts. It is shabby, it is disrespectful, and it is not in 
keeping with any sense of fairness that we try to operate our 
system of laws with.
    So I am delighted and congratulate you, Mr. Chairman, for 
holding these hearings and I am very pleased to see all of 
these witnesses with us. Thank you.
    [The prepared statement of Mr. Conyers appears as a 
submission for the record.]
    Chairman Kennedy. Thank you very much. We might join and 
ask the American Bar Association to do a study about how the 
attorneys are treated and give a report back to us.
    Representative Conyers. I would like to join you in such a 
request.
    Chairman Kennedy. We might join with Senator Brownback and 
others and see if it might make some sense.
    Marie Ocean, we thank you for being here. We thank you for 
coming and we know it is not easy to talk about the struggles 
in one's life as you have had, and so we are very grateful to 
you for telling us your story. By telling us your story, we 
will try and make sure it doesn't happen to other people.

  STATEMENT OF MARIE JOCELYN OCEAN, HAITIAN ASYLEE AND FORMER 
                    DETAINEE, MIAMI, FLORIDA

    Ms. Ocean. [speaking through an interpreter.] Good 
afternoon, ladies and gentlemen. Good afternoon, Mr. Chair. My 
name is Marie Jocelyn Ocean. I am from Haiti and I am here 
because of my difficulties, my problems, with Lavalas.
    I suffered quite a few shocks, I suffered several shocks as 
a result of Lavalas. They killed a brother of mine. They beat 
up one of my brother's children. Fifteen days after my 
brother's funeral, my father was killed. Subsequent to that, 
another brother of mine was beaten and abused and suffered a 
stab wound right above his eyebrow.
    They came after me subsequently, but I ran. Because they 
did not find me, they beat up on my 9-year-old girl. This year, 
she is 10 years old. And these are the reasons that I fled the 
country by boat--I along with the many other women who are 
still detained for the same reasons.
    I am not alone to have suffered this problem. My problem is 
also the problem of the other women who are still detained. We 
were detained by the Immigration and Nationalization Service on 
December 3. I was taken to jail, I along with the other women 
detainees. I was held in a motel that served like a jail along 
with other women and we were not treated well at all.
    We were in a room. Essentially, it had no windows and we 
were not able to see the outside at all. We could not breathe. 
The only opportunity to enjoy the outdoors was on our trips to 
the court. And there was also a 7-year-old youngster also 
locked up with us. A 7-year-old should not be detained in such 
circumstances.
    I was summoned by an official at the jail, supposedly 
because I was going to court, and I found myself being 
transferred to another facility, a jail, TGK. Upon my arrival 
at TGK, I was strip-searched. I along with the other women were 
equally strip-searched, and this process of being strip-
searched was absolutely humiliating and we were handcuffed and 
escorted into the jail.
    At the jail, one of the experiences was the evening check-
ups when the guards would come around to check the cells and to 
make sure that all the detainees were in place. The locking of 
the doors, the banging on the jail doors, and the flashlights 
was absolutely traumatizing. The flashlights interrupting our 
sleep that way was traumatizing and that made us even more 
fearful, and that contributed to taking us back to the 
experience we had in Haiti.
    And certainly we were taken before a judge, but not being 
able to speak English, not understanding the process, the 
procedures, we were helpless. Among the other women detainees, 
I was the only fortunate one to have been benefited from the 
legal assistance of a FIAC attorney, and this attorney 
accompanied me and represented me before the immigration judge 
at TGK.
    On May 31, 2002, I went before the judge and I was granted 
asylum in the United States. I was very happy to receive 
asylum, but I was still troubled. I was troubled for the other 
women detainees because we were in the same boat together, so 
to speak, because when we were all captured we did not know 
where we would end up.
    They were moved from one detention facility to another, and 
I think that these women should not have been detained in that 
manner. And all of the other nationals who subsequently 
requested asylum were released, while the Haitians were kept 
and were denied every time. All of us have the same blood 
flowing through our veins and we are all God's children; we are 
children of the same God.
    We thought that coming before Americans, coming before 
America with the problems we endured, with the troubles we had 
to experience, and that if we came with our troubles before 
America, America would consider this treatment we experienced, 
as well as the torture we experienced. Unfortunately, this was 
not the outcome that we anticipated or expected.
    We were treated worse than common criminals because the 
facility in which these women are detained is a jail facility 
for criminals. They will have been there 10 months now. They 
should not have been there for such a long time because they 
are not criminals. They did not kill anyone.
    I acknowledge that we arrived illegally, but we are not to 
be blamed because conditions in our country forced us to flee. 
According to the laws of this country, while it is true that we 
arrived illegally and we could have been detained to be 
punished for breaking those laws, we should not been punished 
or detained for such a long time.
    We were absolutely humiliated. We were devaluated as human 
beings. Certainly, the authorities do not view it that way, but 
we detainees certainly feel and experience it that way because 
when an adult cries, certainly there are problems, and he cries 
because he has problems.
    Since my arrival in the United States, since my and the 
other detainees' arrivals, we have not experienced the same 
difficulties as in Haiti, because the conditions under which I 
fled Haiti are certainly different from the conditions I live 
in today. I am no longer afraid for my life.
    I appear before you today to testify and to appeal to you 
to help these women detainees because we are all one and the 
same, because we must hang in there together, put our heads 
together so that they too can be freed.
    Thank you very much for the opportunity to appear before 
you to testify on my behalf as well as on behalf of the other 
women detainees.
    [The prepared statement of Ms. Ocean appears as a 
submission for the record.]
    Chairman Kennedy. Thank you for that extraordinary story of 
incredible pain, anguish and misery. No one should have to 
undergo that kind of treatment here in the United States. It is 
an absolutely despicable kind of treatment, and we certainly 
find it as shocking an injustice as you do and we will see what 
we can do to try to bring that kind of treatment to a halt. It 
is very powerful testimony and we appreciate very much your 
willingness to share it with us.
    Ms. Little?

    STATEMENT OF CHERYL LITTLE, EXECUTIVE DIRECTOR, FLORIDA 
           IMMIGRANT ADVOCACY CENTER, MIAMI, FLORIDA

    Ms. Little. On behalf of the Florida Immigrant Advocacy 
Center, I want to thank you, Mr. Chairman, and Senator 
Brownback for inviting me to testify today.
    And it is always good to see Congressman Conyers. I saw 
him, recently in Miami when he was visiting the detention 
centers there and meeting with many of the Haitians. I want to 
thank each of you for your leadership in defending immigrants' 
basic rights.
    My testimony today is supported by the Women's Commission 
for Refugee Women and Children.
    In December 2001, following the December 3 arrival of 167 
Haitians who fled Haiti by boat, the Acting Deputy INS 
Commissioner adopted a secret policy directed solely at 
Haitians which resulted in the detention of virtually all 
Haitian asylum seekers in South Florida, regardless of how they 
arrived in the United States and whether they had demonstrated 
a credible fear of persecution, which all but two did.
    While adopting the Haitian policy, the INS continued to 
routinely release those asylum seekers of other nationalities 
who had passed their INS credible fear interviews. The INS 
policy expressly applied to Haitian asylum seekers arriving 
both by plane and by boat.
    The effect of the December policy was dramatic and 
immediate. The released rate for Haitians who had passed their 
credible fear interviews dropped from 96 percent in November 
2001 to 6 percent between December 14, 2001, and March 18, 
2002. Even Haitians who had been granted asylum and could no 
longer be legally detained by INS were not immediately 
released.
    As a result of the Haitian policy, the INS refused to 
release over 240 Haitian asylum seekers, while it continued to 
release asylum seekers of all other nationalities in the Miami 
District at an extremely high rate. The Haitian policy 
represents a radical departure from INS' prior policy, which 
did not make distinctions based on nationality or race and 
which expressly permitted the release of asylum seekers of all 
nationalities who pass their credible fear interviews in the 
Miami District.
    For months after the Haitian policy was adopted, INS 
officials denied the existence of the policy to advocates and 
community leaders. Only in March 2002 did INS officials finally 
acknowledge that they had indeed adopted a policy of detaining 
Haitians.
    According to Acting INS Commissioner Becraft, the INS 
adopted the policy because of concerns that there was going to 
be a mass migration of people arriving by boat from Haiti 
rivaling that of the Cuban Mariel exodus and the significant 
number of refugees held at Guantanamo in 1994.
    Yet the overall number of Haitian interdictions in 2001 
simply do not indicate a mass migration, nor do Coast Guard 
interdiction statistics for 2002. Indeed, only 1,956 Haitians 
were interdicted at sea by the Coast Guard in 2001. This number 
is significantly smaller than the 1980 Mariel boatlift, during 
which 125,000 Cubans arrived in the United States, as well as 
in 1994, when over 25,000 Haitians and over 37,000 Cubans were 
detained there.
    On March 15, 2002, a class action lawsuit was filed on 
behalf of all the detained Haitians in the Southern District of 
Florida who arrived on or after December 3 and had passed their 
credible fear interviews. The district court summarily 
dismissed the case without an evidentiary hearing, saying it 
was up to politicians, not the courts, to determine the 
Haitians' fate. An appeal to the Eleventh Circuit Court of 
Appeals is pending.
    After the lawsuit was filed, INS changed its detention 
policy to permit the release of certain Haitian asylum seekers 
who arrived at the Miami Airport or other ports of entry. 
However, the vast majority of Haitians who arrived by boat on 
December 3 continue to languish in INS detention and suffer 
irreparable harm as a result.
    Unlike released asylum seekers of other nationalities, they 
are forced to prepare for their asylum cases in an expedited, 
Haitian-only docket and have limited access to counsel. Few 
agencies are able to provide free legal help to the Haitians 
and most are unrepresented. Without attorneys, the Haitians are 
far less likely to win asylum than those with attorneys.
    A study conducted by Georgetown University in 2000 
indicated that asylum seekers in detention are more than twice 
as likely as those who aren't detained to be without legal 
representation, and persons with attorneys are four to six 
times more likely to be granted asylum.
    Most of the Haitians speak no English and are forced to 
complete asylum applications in English. Their cases are 
expedited and those attorneys who have agreed to represent them 
face multiple barriers in gaining access to their clients. INS 
itself admitted that it lacks adequate visitation space to meet 
the needs of attorneys assisting the Haitians.
    The conditions in the facilities in which Haitians have 
been detained further compromise their ability to seek asylum. 
These facilities have been terribly overcrowded, unsanitary, 
and traumatizing for many. Families have been separated into 
different detention centers, sometimes thousands of miles 
apart.
    From December 2001 through August 2002, the Haitian women 
were held in a maximum-security county jail and subject to 
frequent strip-searches, lock-downs, and hourly interruptions 
of sleep during the night. In June of this year, a Haitian 
asylum seeker at Krome attempted suicide.
    In conclusion, FIAC is gravely concerned about the safety 
of those Haitians already deported and about the likely 
deportation of 107 of the Haitian asylum seekers who remain in 
INS custody after 10 months in the United States. Virtually all 
of the Haitians on board the December 3 boat are from Raboteau, 
a section of Gonaives which has been the epicenter of recent 
political violence and unrest in Haiti.
    Our responsibility to protect persons among us who have 
fled political persecution should not depend on politics. 
Haitian asylum seekers come to the United States seeking refuge 
from persecution. They expect to be treated fairly and equally 
by the world's leading democracy and defender of human rights.
    While we certainly understand the need after September 11 
to protect our borders, to indefinitely detain Haitian asylum 
seekers in the Miami District who have committed no crime and 
treat them differently than any other group is a perplexing 
waste of precious resources and a waste of U.S. taxpayers' 
money.
    To flee from persecution is not a crime; it is a basic 
human right. It is the Government's responsibility now to treat 
the Haitian asylum seekers as they treat asylum seekers from 
other countries. Haitians deserve no less.
    [The prepared statement of Ms. Little appears as a 
submission for the record.]
    Chairman Kennedy. We will include all the statements in the 
record.
    Mr. Johnson?

   STATEMENT OF STEPHEN C. JOHNSON, POLICY ANALYST FOR LATIN 
         AMERICA, HERITAGE FOUNDATION, WASHINGTON, D.C.

    Mr. Johnson. Mr. Chairman and distinguished members of the 
subcommittee, I feel honored today by your invitation to allow 
me to speak to you on the political and economic conditions in 
Haiti.
    I do not study immigration or refugee policy, and therefore 
cannot provide expertise on the immediate issue that you are 
considering, but welcome the opportunity to address some of the 
conditions that encourage Haitians to leave their home. I am 
also keenly aware that many of you have experience on this 
issue that far pre-dates my own.
    One could conclude that Haiti has had a history of 
political turbulence since independence almost 200 years ago, 
and that has left little space for the development of durable 
institutions and the idea that government is supposed to serve 
the people as opposed to the people serving it.
    Such rule has periodically triggered waves of immigrants 
and migrants that impact Haiti's close neighbors, the Dominican 
Republic particularly, which shares the same island, Cuba, the 
Bahamas, and the United States. These migrations continue today 
and are likely to continue into the near future as long as 
Haitians and their leaders fail to agree on a social contract 
and develop a society that honors the dignity of each 
individual, the concept of cooperation, and free choice.
    Haiti is not alone in its problems. In the 1980's, Central 
Americans fled wars and civil conflicts impacting the United 
States. Today, families are leaving Colombia, Venezuela, 
Ecuador, and Argentina to flee violence or economic disaster.
    My view is that asylum decisions can only be made fairly 
when heavy migratory pressures are alleviated, and migration 
numbers can only be reduced by helping to resolve the problems 
that trigger flight to begin with in the country of origin.
    Haiti is a country that has an abundance of democratic 
thinkers and a wealth of people with entrepreneurial skills who 
understand the virtues of consensus and compromise. The problem 
seems to be that the playing field has always been arranged by 
those who wish to act with an iron fist. Their preoccupation 
with control has produced a legacy of impunity, corruption, and 
criminality that belies the inherent goodness of the Haitian 
people.
    Political leaders have traditionally fought each other 
using partisan mobs. Papa Doc Duvalier created an entire army 
of them called the Tontons Macoutes. Supporters of President 
Jean Bertrand Aristide's Lavalas Party now carry out attacks in 
a similar manner against political opponents and journalists 
using rocks, guns, and machetes, whether he wants them to or 
not.
    Human Rights Watch and the U.S. State Department report 
that the judicial system and police, into which the United 
States poured nearly $100 million after President Aristide was 
restored to power in 1994, are essentially dysfunctional. Of 
the 6,000 police trained when the new Haitian National Police 
was organized, only about 3,000 remain, and many of them are 
sympathizers of the Lavalas Party.
    Haiti has a population of about 7.8 million people. By way 
of comparison, El Salvador has 6 million people and a civilian 
police force of 19,000, and that is barely adequate to deal 
with common crime and drug trafficking.
    On economic terms, Haiti's gross domestic product fell, on 
average, 2.5 percent during the last 10 years. That is 2.5 
percent every year. Gross domestic product per capita is about 
$370, according to the Heritage Foundation's Index of Economic 
Freedom. Eighty percent of the water is contaminated. Half of 
the adult population is illiterate, 60 percent are out of work. 
Aside from the millions who eke out a living in subsistence 
agriculture on environmentally degraded land, only about 30,000 
have jobs in industry. As you can see, thousands, if not 
millions more, are needed.
    A commitment to good governance would solve a number of 
Haiti's problems and unlock direct assistance from 
international donors. But without progress on governance, such 
aid would be wasted. To help current efforts gain traction, 
Haiti must look to some kind of international oversight to help 
establish a safe environment for fair elections to help develop 
good citizenship and government from the grass roots up and to 
check authoritarian impulses of any leader who would unfairly 
interpret his wishes as being those of the people.
    This is not something that is going to be solved overnight. 
It is not going to be solved in a matter of weeks, months, 
years. Most likely, it will be solved in a matter of decades, 
and U.S. policymakers and lawmakers, I think, need to be 
prepared for that long challenge.
    Haiti does deserve our help. We should help Haiti resolve 
its problems. We need to look at the long term and be realistic 
about what it will take, but we must also think about the fact 
that, along with Haiti, there are other countries experiencing 
conflict in Latin America that present U.S. lawmakers and 
policymakers with an extremely daunting task, and I respect 
your initiative and your willingness to take this on.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Chairman Kennedy. Thank you very much.
    Dina Paul Parks?

  STATEMENT OF DINA PAUL PARKS, EXECUTIVE DIRECTOR, NATIONAL 
        COALITION FOR HAITIAN RIGHTS, NEW YORK, NEW YORK

    Ms. Parks. Thank you, Mr. Chairman. Thank you for the 
opportunity to be here, and I am particularly honored to 
address the committee under your leadership, which has been so 
instrumental in establishing and fighting to uphold this 
Nation's refugee protection laws.
    I would also like to acknowledge Senator Brownback for his 
demonstrated commitment to the plight of the most vulnerable 
immigrants and refugees, and the Haitian asylum seekers who are 
the subject of this hearing today, I think, would certainly 
belong in that category.
    You have heard from several of our guests here about the 
basic and most salient facts of this latest INS policy. As you 
have learned by now, it is the just the latest in a very long 
history of double-standard treatment for Haitians by the U.S. 
Government.
    Unfortunately, the corollary element to this dynamic is the 
very long, painful tradition of political violence and 
repression of human rights in Haiti, and it is that that over 
the next few minutes I will focus on.
    The latest bout of political violence and gridlock harkens 
back to the flawed elections of May 2000. Since then, the 
government and opposition have been locked in a political 
stalemate in which neither side recognizes the legitimacy of 
the other, and both sides have also rebuffed serious 
negotiations, despite the intervention of the OAS in over 20 
trips to settle the dispute.
    Additionally, in June of 2001 President Aristide instituted 
what was called a zero-tolerance policy. This basically 
legitimizes the lynching of delinquents or those accused as 
such and has been used as a pretext for these groups to 
threaten or harass anyone perceived as a menace to Lavalas.
    This was taken to the extreme on December 17, 2001, the day 
of the attack on the national palace, branded as an alleged 
coup attempt by the Aristide government. Less than 2 hours 
after this attack, around of Port-au-Prince and in various 
locations around the country, bands of armed Lavalas 
supporters, known commonly as popular organizations, 
occasionally accompanied by elected Lavalas officials, attacked 
and burned down the homes and offices of opposition party 
members and supporters, attacked journalists, and began to 
force the censure of the reporting of these incidents by the 
independent Haitian media.
    Beginning in November and throughout December, journalists 
and human rights defenders were threatened and attacked on a 
daily basis. One journalist sympathetic to the opposition named 
Brignol Lindor was lynched and assassinated on December 2 by a 
crowd who claimed to be getting revenge for an anonymous attack 
on a Lavalas supporter a few days earlier.
    Shortly afterward, approximately 30 journalists, 
particularly those from radio stations who did not auto-censure 
their broadcasts after the attacks, fled Haiti. In addition, in 
early 2002 a small number of high-profile judges and social and 
political activists have continued to flee Haiti as pressure, 
harassment, and attacks against person, family, and property 
have continued.
    A report on the investigation of the December 17 attack by 
the Inter-American Commission for Human Rights of the OAS 
issued on July 1 of this year concluded that the attack was not 
a coup attempt and that the violent mobs had to have had fore-
knowledge of what was expected of them in order to retaliate in 
such a manner.
    However, as more recent incidents have shown, these armed 
gangs are loyal to members of various factions of the Lavalas 
government and not exclusively to one central figure. They are 
disparate and operate chaotically, vying for power, and some 
are beginning to lose their privileges. This is seen as a 
betrayal by the gangs, resulting in increasing verbal and other 
backlash against the Lavalas movement, which, although fomented 
this violence, has to some degree lost control of it as it has 
taken on a life of its own.
    The U.S. Department of State, Human Rights Watch, Amnesty 
International, and NCHR have considered Aristide's human rights 
record in this second term as poor for a democracy. The biggest 
problems identified include impunity for those claiming to act 
on behalf or in support of the government, a politicized police 
force, the lack of independence of the judiciary, and the 
harassment and persecution of members of the opposition, those 
journalists who do not self-censure, human rights defenders, 
and other outspoken critics of the government, its policies, 
and the armed popular organizations.
    To run down a few of the recent developments and violations 
in the past few months, in July a journalist, Israel Jacky 
Cantave, and his cousin disappeared on the way home from work. 
They were found beaten and injured several days later by 
neighbors of the building where they were being held.
    July through September: student protests against the 
government for attacking the foundation of the Independent 
Haitian University and retaliation against those student 
protestors. The government unilaterally and without warning 
decided to dismiss the vice chancellor of the university and 
suspend all student and faculty elections and appoint its own 
directors.
    August 2: the jailbreak of Amiot ``Cubain'' Metayer out of 
a prison in Raboteau, Gonaives, which is a word that you have 
heard before and we will hear again. Cubain is a former 
Aristide ally who was arrested for his role in the December 17, 
2001, attacks on the opposition. The jailbreak also freed close 
to 160 other prisoners and these armed gangs continue to roam 
the streets in Raboteau.
    September: a week-long gang war in the Cite Soleil slum 
over a cache of arms resulted in at least 20 dead and 100 
wounded. September 19: Haitian National Police shut down the 
concert of a popular band for playing a song deemed critical of 
Aristide. ``Revolution'' lists some of the country's ills and 
says ``Mr. President, I am talking to you...'' Although 
government officials declared it had not ordered the shut-down, 
no action has been taken to offer an apology to the band or its 
organizers, or to sanction the police officers responsible.
    September 20: The disappearance of a popular pro-Aristide 
community leader and two associates after being arrested by the 
police over a traffic dispute with government officials sparked 
tire-burning and violent protests in the streets of Carrefour 
Feuilles for several days.
    Heavily armed gang members demanded the release of Felix 
Bien-Aime, and heavily armed members of the police retaliated 
by firing tear gas and bullets into the popular neighborhood. 
At least one journalist reported being assaulted by the police, 
while other casualties included one death and several injuries. 
A week later, there had been several attempts to burn down the 
police station.
    September 26: Three popular independent radio stations--
Radio Kiskeya, Radio Caraibes, and Radio Ibo--shut down after 
receiving serious and credible threats by armed men. Just days 
later, President Aristide is cited to have said that if the 
Haitian press continued to repeat what the international press 
is saying, it is a clear continuation of the damage of the 1991 
coup. This type of statement is just what has incited people to 
act within the guidelines of the zero-tolerance policy.
    In spite of these recent and ongoing developments, there 
are a lot of differences between what is happening in Haiti now 
and what has been behind the mass exodus of the 1970's and 
1980's, and it is very important to outline those differences.
    First, refugees from the 1980's and during the coup d'etat 
of the early 1990's show that the numbers of refugees 
identified and interdicted are beyond comparison. From some 
24,000 throughout the 1980's to 60,000 in just 3 years in the 
early 1990's, these figures have dropped to a scant 1,400 since 
October 2001.
    During this period, according to its own website, the U.S.
    Coast Guard reports only one or zero interdictions in the 
months of October, January, February, June, and August, meaning 
that even in the months before the INS policy on Haitian 
refugees was known as such, the Coast Guard picked up no boat 
people in January or February of 2002, despite the intense 
turbulence the country experienced in December 2001 following 
the attack on the national palace and the reprisal attacks on 
members of the opposition.
    Again, I would like to remind the committee that these are 
the Coast Guard's own numbers and they do not support the 
notion of a mass exodus. The interdictions from 1984 to 1989, 
and then from 1991 to 1995, far exceed these statistics.
    However, the reasons for the lack of a larger wave of 
refugees are not merely to be found in the statistics. With 
regard to Haiti, there are great distinctions to be made 
between the political and human rights situations under the 
Duvaliers, for example, the de facto Cedras regime that 
overthrew Aristide, and the current administration.
    Under the previous regimes, the forces of government and 
repression were strictly regimented and part of a clear, 
organized, and well-known hierarchy. Under the Duvaliers, they 
were the military and the macouts, used to balance out each 
other's power. Under Cedras, the military's power is 
complemented by both the military group FRAPH and an elaborate 
system of rural ``chefs de section'' and ``attaches.''
    However, under the current administration no such 
organization or consolidated, centralized power exists. In 
fact, many human rights organizations, activists, and political 
observers diagnose chaos and disorder instead. Haiti's 7-year-
old police force is politicized and corrupt, with staffing far 
below the original 5,000 recruits, primarily due to attrition.
    The country's many armed gangs, the popular organizations, 
are primarily loyal to the Aristide government, but not 
necessarily to Aristide himself. They are loyal to other 
popular or local leaders within Lavalas, such as Senator Dany 
Toussaint, a former military officer, and Senator Medard Joseph 
of Gonaives, whose loyal gangs include the Cannibal Army, 
responsible for August's spectacular jailbreak.
    Chairman Kennedy. This is a fascinating story because it 
tells with great authenticity what was happening in the country 
by relating it to the flow of immigrants. It is very, very 
powerful because generally the dialogue lacks that kind of 
sophistication and understanding of these forces. I think it is 
enormously compelling.
    We will put it all in the record and I think it is going to 
be helpful to us as we are trying to get some justice for the 
Haitian detainees. I think it is going to be very helpful to us 
in making that case.
    I would like you maybe just to summarize and I will put it 
all in the record. You have done a lot of background and study 
of this. It is an incredible work product. I am very impressed 
with all of it, but if you could summarize, I want to get some 
questions in.
    Ms. Parks. Absolutely. I will summarize by just saying a 
few words, if I could, about the contributions of Haitian 
Americans to this country.
    Despite the treatment that sometimes we receive in this 
country, our community has produced individuals such as Pierre-
Richard Prosper, the U.S. Ambassador-at-Large for War Crimes 
Issues; Dr. Rose-Marie Toussaint, the first African American 
woman to head a liver transplant service in the world; Mr. 
Dumas Simeus, Chairman and CEO of Simeus Food International, 
the largest black-owned business in Texas and one of the top in 
the country; Mario Elie, the power guard that helped the 
Houston Rockets to back-to-back NBA championships in the mid-
1990's.
    We are doctors, taxi drivers, lawyers, home health aides, 
journalists, entertainers. And we are elected officials--Marie 
Ceflau in Massachusetts, Philip Brutus in Florida, Jose Listan, 
mayor of North Miami. We are even executives, like our own 
Board Chair, Eddy Bayardelle, First Vice President for Global 
Philanthropy at Merrill Lynch.
    We are a people who love our country, but when forced to 
leave it, we make an extraordinary impact where we land and the 
community is enriched for it. There is simply no reason that 
year after year, decade after decade, we always, always, always 
are treated like second-class citizens.
    Again, I thank you for the opportunity to address this 
committee, and I am confident that you and your colleagues will 
exercise due diligence in addressing our concerns that these 
Haitian asylum seekers be treated in a fair and humane manner, 
consistent with U.S. and international law.
    Thank you.
    [The prepared statement of Ms. Parks appears as a 
submission for the record.]
    Chairman Kennedy. Thank you very much for an excellent 
history.
    I was just asking my staff to both listen to you and read 
your testimony and remember the various fact. We certainly saw 
in July 2001, the student protests against the government and 
the suspension of student election; in August, the jailbreaks 
of an Aristide ally and 160 other prisoners; the September gang 
wars, 20 dead, 100 wounded; the resignation of two ministers. 
Then, in December, the boat leaves.
    You don't have to be a rocket scientist to understand what 
is happening at this time. And then to try and force people to 
go through these hoops is mind-boggling. I think it is fair to 
go on through these points that you raise and ask whether these 
were motivating factors or not. I am sure there are other 
considerations, but it certainly describes a horrific 
situation. I think putting those numbers from the past about 
the ebb and flow of the numbers, too, is important for us to 
understand. That is incredibly important. So I am grateful to 
you for this.
    I was interested in the legality of the detention policy. 
What was your sense about the legality of these detention 
policies? Would you comment on that?
    Ms. Little. Yes. We filed a lawsuit on the basis that the 
detention policy is illegal.
    Chairman Kennedy. We will include the lawsuit in the file, 
not the record.
    Ms. Little. We believe that the policy is illegal for a 
number of reasons. First of all, the parole provisions of the 
Immigration and Nationality Act call for facially neutral 
parole decisions to be made. In fact, the U.S. Supreme Court in 
Jean v. Nelson held that parole decisions must be made without 
regard to race or national origin, and that decision still 
stands.
    Also, U.S. law is based on the 1951 Refugee Convention, and 
fundamental to that Convention is the principle of refoulement, 
or non-return, the idea that asylum seekers are not to be 
persecuted for irregular entry. Certainly, the Haitians that we 
are speaking of are being punished and penalized by virtue of 
their indefinite detention because they attempted to come here 
and pursue asylum claims.
    We also believe that international law is being violated as 
a result of this policy. I believe, Senator Kennedy, you 
referenced the UNHCR advisory opinion. The UNHCR recently said 
that to detain asylum seekers in order to deter them is a 
violation of international law. They also said that to detain 
certain nationalities while releasing other nationalities is a 
violation of international norms of refugee law. So for a whole 
lot of reasons, including equal protection provisions of the 
U.S. Constitution, we believe that this policy is illegal.
    Senator Brownback. Mr. Chairman, I am going to have to go 
on, unfortunately, to another meeting, but thank you for 
holding this hearing. I appreciate the statements of the people 
on the panel.
    If you don't mind me making a brief statement here, I think 
it is very clear what the situation is. This isn't new 
information. The bishop, I think, articulated it probably best 
when he said ``this time, and again and again.'' I really hope 
that maybe we can move past this mistreatment of one group and 
let's start to get this policy right.
    I appreciate the articulate statements that each of you put 
forward. Marie, thank you very much for coming here, in 
particular, with the difficulty that your family has been 
through. Hopefully, maybe we can join in a letter or some 
advocacy together so that we can try to press to get this 
policy changed so that everybody is treated the same, because 
this is well-known and well-documented, and it is time to move 
past it. So I would certainly give my help to do that.
    Chairman Kennedy. Well, I want to thank Senator Brownback 
because he certainly will be a very powerful ally in helping us 
deal with this.
    I want to thank you very much, Sam, for being here today 
and for all your support.
    Finally, a few points. Ms. Little, tell us about the 
problems that your organization has in getting legal 
representation. How difficult is it to find pro bono attorneys?
    Ms. Little. Well, to their credit, the Executive Office of 
Immigration Review--Steve Lang, who heads their pro bono 
department, put out a press release trying to get pro bono 
lawyers to take on some of these cases, but unfortunately it 
was not successful. As a result, most of these Haitians have no 
attorneys. Because their cases are being expedited, access to 
them is paramount. Yet, we have faced numerous problems in 
trying to help the Haitians. Let me just give you an example of 
what I mean when I say expedited.
    Additional immigration judges were detailed from the Miami 
courtrooms to Krome in order to hear these cases. Some of these 
cases are scheduled for only an hour, others for half an hour--
that is with translation--versus typically 3 hours in other 
cases.
    Judges are holding up to five merits hearings a day with 
the Haitian cases. Some judges have told us that they simply 
cannot grant continuances beyond 4 weeks. With other 
nationalities, that is not a problem. In one week, we had over 
165 requests for assistance from the Haitians. Yet, at a time 
when we need more access than ever, access has been more 
restricted.
    For example, at the Krome detention center, we used to have 
access to our clients virtually any time during the weekends. 
Not long ago, INS officials told us that we could only visit 
our clients there between 7 and 11 a.m. This is a serious 
problem not only for us, but for private attorneys wanting to 
take on some of these cases.
    Also, we typically wait for hours at Krome to see our 
clients because head counts can take hours. After the counts 
finish, oftentimes we're told they don't have enough escorts to 
bring the Haitians meet with us. And there is not enough 
confidential visitation space for attorneys to meet with their 
clients.
    At the Turner Guilford Knight Correctional Center, where 
Ms. Ocean was detained for several months, we typically wait up 
to an hour for an escort. There are constantly changing 
requirements for attorneys to get permission to go to the TGK 
unit where the women are being held. We have no access at all 
to the hotel where Ms. Ocean was originally detained. In fact, 
the only time I have been there was when Congressman Conyers 
was in Miami and he visited the facility and brought some of us 
along.
    The problems for us are exacerbated by the fact that our 
clients are in four different facilities. The men are at Krome. 
The women have been moved from TGK to the Broward County Work 
Release Center. Women with children are at a local motel, and 
we also have clients at a facility in Berks County, 
Pennsylvania.
    I don't think it is surprising that a number of our Haitian 
clients are extremely depressed and demoralized. As a result, 
they are having great difficulty articulating their claims. 
Many of their asylum applications, which have to be completed 
in English, consist of one or two sentences. The Haitians have 
no idea how to go about dealing with the asylum process, which 
is very complicated even for immigration attorneys.
    Chairman Kennedy. Bishop Wenski, let me ask you about what 
is your own experience in providing pastoral guidance to these 
refugees. What amount are economic refugees and what amount are 
those that fear asylum? Let's take the ones that you have been 
working with, I imagine, in different locations. We are 
interested obviously in the ones that you might have provided 
counselor services to.
    Bishop Wenski. I think it is kind of a trick question 
because usually in this country when the economy goes bad, we 
hang the politicians. So the economic and political factors are 
very much interconnected, and I don't know that we can distill 
somebody that is purely economic and somebody that is purely 
political without having a mixture of both groups.
    Chairman Kennedy. Well, I am not sure I agree with you. I 
think we heard today from Ms. Ocean and that is an extremely 
powerful case that you will hear for asylum, epecially all that 
has happened to that family. It didn't have anything to do with 
economics. Given what we have heard in terms of the political 
anarchy that has existed, I am not sure I accept that.
    Bishop Wenski. Well, I would agree with you on the issue of 
political anarchy.
    Chairman Kennedy. That is what we are talking about. The 
point is you are a counselor, to people like Marie, and they 
are parishioners. People are talking to you in ways that they 
wouldn't talk to us. I was asking about whether these are real-
life stories or whether this is what we will hear from 
opponents, saying anyone can get six witnesses to go up there 
and say anything.
    I listened in the Armed Services Committee about the danger 
of the Iraqis of dropping weapons of mass destruction, and one 
my colleagues said, well, Senator Kennedy, you can get six 
generals to say anything. Well, they just happened to be some 
of the most important generals that have led American forces.
    So we are trying to find out what the facts are here, and 
this is a serious problem and these are serious cases. This 
isn't the first time I have heard them, but I was giving you an 
opportunity to say----
    Bishop Wenski. Well, in fact, I would say that Marie's case 
is certainly based on fact. But even INS would say her case is 
based on fact because almost all of her companions in detention 
have been found to have a credible fear of persecution. So 
there is no one that is questioning the credibility of their 
basis for asylum, which is based on political reasons.
    The political classes of Haiti have failed their people and 
that is one of the sad realities that we have here. There is 
great Haitian proverb that describes it well [Creole saying.] 
You know, what does the flea care about if the dog is hungry? 
Basically, we have a failure of the political classes that the 
people had much hope in much expectation of. And, of course, 
they are paying for this in increasing misery and violence, and 
therefore are leaving their country looking for new hope.
    Chairman Kennedy. I am going to include in the record a 
number of statements, one from my colleague, Senator Graham, 
and a number of other leaders in the community, leaders in 
various organizations. We will include those in the record.
    [The prepared statement of Senator Graham appears as a 
submission for the record.]
    Chairman Kennedy. I want to thank all of our panelists 
very, very much for coming. It might be said, we have known 
this for some time. We are going to try and keep after this 
until we get something done, at least I am, and so we will work 
with others that feel the same way. I believe that we can and 
we commit that we will.
    We thank our colleagues.
    The subcommittee stands in recess.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T8613.001
    
    [GRAPHIC] [TIFF OMITTED] T8613.002
    
    [GRAPHIC] [TIFF OMITTED] T8613.003
    
    [GRAPHIC] [TIFF OMITTED] T8613.004
    
    [GRAPHIC] [TIFF OMITTED] T8613.005
    
    [GRAPHIC] [TIFF OMITTED] T8613.006
    
    [GRAPHIC] [TIFF OMITTED] T8613.007
    
    [GRAPHIC] [TIFF OMITTED] T8613.008
    
    [GRAPHIC] [TIFF OMITTED] T8613.009
    
    [GRAPHIC] [TIFF OMITTED] T8613.010
    
    [GRAPHIC] [TIFF OMITTED] T8613.011
    
    [GRAPHIC] [TIFF OMITTED] T8613.012
    
    [GRAPHIC] [TIFF OMITTED] T8613.013
    
    [GRAPHIC] [TIFF OMITTED] T8613.014
    
    [GRAPHIC] [TIFF OMITTED] T8613.015
    
    [GRAPHIC] [TIFF OMITTED] T8613.016
    
    [GRAPHIC] [TIFF OMITTED] T8613.031
    
    [GRAPHIC] [TIFF OMITTED] T8613.032
    
    [GRAPHIC] [TIFF OMITTED] T8613.033
    
    [GRAPHIC] [TIFF OMITTED] T8613.034
    
    [GRAPHIC] [TIFF OMITTED] T8613.035
    
    [GRAPHIC] [TIFF OMITTED] T8613.036
    
    [GRAPHIC] [TIFF OMITTED] T8613.037
    
    [GRAPHIC] [TIFF OMITTED] T8613.038
    
    [GRAPHIC] [TIFF OMITTED] T8613.039
    
    [GRAPHIC] [TIFF OMITTED] T8613.040
    
    [GRAPHIC] [TIFF OMITTED] T8613.041
    
    [GRAPHIC] [TIFF OMITTED] T8613.042
    
    [GRAPHIC] [TIFF OMITTED] T8613.043
    
    [GRAPHIC] [TIFF OMITTED] T8613.044
    
    [GRAPHIC] [TIFF OMITTED] T8613.045
    
    [GRAPHIC] [TIFF OMITTED] T8613.046
    
    [GRAPHIC] [TIFF OMITTED] T8613.047
    
    [GRAPHIC] [TIFF OMITTED] T8613.048
    
    [GRAPHIC] [TIFF OMITTED] T8613.049
    
    [GRAPHIC] [TIFF OMITTED] T8613.050
    
    [GRAPHIC] [TIFF OMITTED] T8613.051
    
    [GRAPHIC] [TIFF OMITTED] T8613.017
    
    [GRAPHIC] [TIFF OMITTED] T8613.018
    
    [GRAPHIC] [TIFF OMITTED] T8613.019
    
    [GRAPHIC] [TIFF OMITTED] T8613.020
    
    [GRAPHIC] [TIFF OMITTED] T8613.021
    
    [GRAPHIC] [TIFF OMITTED] T8613.022
    
    [GRAPHIC] [TIFF OMITTED] T8613.023
    
    [GRAPHIC] [TIFF OMITTED] T8613.024
    
    [GRAPHIC] [TIFF OMITTED] T8613.025
    
    [GRAPHIC] [TIFF OMITTED] T8613.026
    
    [GRAPHIC] [TIFF OMITTED] T8613.027
    
    [GRAPHIC] [TIFF OMITTED] T8613.028
    
    [GRAPHIC] [TIFF OMITTED] T8613.029
    
    [GRAPHIC] [TIFF OMITTED] T8613.030
    
    [GRAPHIC] [TIFF OMITTED] T8613.052
    
    [GRAPHIC] [TIFF OMITTED] T8613.053
    
    [GRAPHIC] [TIFF OMITTED] T8613.054
    
    [GRAPHIC] [TIFF OMITTED] T8613.055
    
    [GRAPHIC] [TIFF OMITTED] T8613.056
    
    [GRAPHIC] [TIFF OMITTED] T8613.057
    
    [GRAPHIC] [TIFF OMITTED] T8613.058
    
    [GRAPHIC] [TIFF OMITTED] T8613.059
    
    [GRAPHIC] [TIFF OMITTED] T8613.060
    
    [GRAPHIC] [TIFF OMITTED] T8613.061
    
    [GRAPHIC] [TIFF OMITTED] T8613.062
    
    [GRAPHIC] [TIFF OMITTED] T8613.063
    
    [GRAPHIC] [TIFF OMITTED] T8613.064
    
    [GRAPHIC] [TIFF OMITTED] T8613.065
    
    [GRAPHIC] [TIFF OMITTED] T8613.066
    
    [GRAPHIC] [TIFF OMITTED] T8613.067
    
    [GRAPHIC] [TIFF OMITTED] T8613.068
    
    [GRAPHIC] [TIFF OMITTED] T8613.069
    
    [GRAPHIC] [TIFF OMITTED] T8613.070
    
    [GRAPHIC] [TIFF OMITTED] T8613.071
    
    [GRAPHIC] [TIFF OMITTED] T8613.072
    
    [GRAPHIC] [TIFF OMITTED] T8613.073
    
    [GRAPHIC] [TIFF OMITTED] T8613.074
    
    [GRAPHIC] [TIFF OMITTED] T8613.075
    
    [GRAPHIC] [TIFF OMITTED] T8613.076
    
    [GRAPHIC] [TIFF OMITTED] T8613.077
    
    [GRAPHIC] [TIFF OMITTED] T8613.078
    
    [GRAPHIC] [TIFF OMITTED] T8613.079
    
    [GRAPHIC] [TIFF OMITTED] T8613.080
    
    [GRAPHIC] [TIFF OMITTED] T8613.081
    
    [GRAPHIC] [TIFF OMITTED] T8613.082
    
    [GRAPHIC] [TIFF OMITTED] T8613.083
    
    [GRAPHIC] [TIFF OMITTED] T8613.084
    
    [GRAPHIC] [TIFF OMITTED] T8613.085
    
    [GRAPHIC] [TIFF OMITTED] T8613.086
    
    [GRAPHIC] [TIFF OMITTED] T8613.087
    
    [GRAPHIC] [TIFF OMITTED] T8613.088
    
    [GRAPHIC] [TIFF OMITTED] T8613.089
    
    [GRAPHIC] [TIFF OMITTED] T8613.090
    
    [GRAPHIC] [TIFF OMITTED] T8613.091
    
    [GRAPHIC] [TIFF OMITTED] T8613.092
    
    [GRAPHIC] [TIFF OMITTED] T8613.093
    
    [GRAPHIC] [TIFF OMITTED] T8613.094
    
    [GRAPHIC] [TIFF OMITTED] T8613.095
    
    [GRAPHIC] [TIFF OMITTED] T8613.096
    
    [GRAPHIC] [TIFF OMITTED] T8613.097
    
    [GRAPHIC] [TIFF OMITTED] T8613.098
    
    [GRAPHIC] [TIFF OMITTED] T8613.099
    
    [GRAPHIC] [TIFF OMITTED] T8613.100
    
    [GRAPHIC] [TIFF OMITTED] T8613.101
    
    [GRAPHIC] [TIFF OMITTED] T8613.102
    
    [GRAPHIC] [TIFF OMITTED] T8613.103
    
    [GRAPHIC] [TIFF OMITTED] T8613.104
    
    [GRAPHIC] [TIFF OMITTED] T8613.105
    
    [GRAPHIC] [TIFF OMITTED] T8613.106
    
    [GRAPHIC] [TIFF OMITTED] T8613.107
    
    [GRAPHIC] [TIFF OMITTED] T8613.108
    
    [GRAPHIC] [TIFF OMITTED] T8613.109
    
    [GRAPHIC] [TIFF OMITTED] T8613.110
    
    [GRAPHIC] [TIFF OMITTED] T8613.111
    
    [GRAPHIC] [TIFF OMITTED] T8613.112
    
    [GRAPHIC] [TIFF OMITTED] T8613.113
    

</pre></body></html>
